ORIGINAL
Supreme Court, U.S.
FILED

SEP 0 2 2021
OFFICE OF THE CLERK

No.
In The

Supreme Court of the United States
i

Shawn Kelly Thomason,
Petitioner
v.
United States of America,
Respondent

On Petition For Writ Of Certiorari
To The Eighth; Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI

i

Shawn Kelly Thomason
In Pro Per
#21761-041
FCIELKTON
Federal Correctional Institute
P.O. Box 10
Lisbon, OH 44432

QUESTIONS) PRESENTED
It is common practice for courts to refer to transgender litigants using their pronouns. Since
at least 1980, the Eighth Circuit has issued opinions that use the pronouns of litigants, but did

:

not do so here. Does this offend the Constitution's guarantee of equal protection under the
law*
l

5

ii

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
M All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
hthWef ShavoA Kelly Thomas ;s currently detained at FCI El/vtan,
PO Bo* IOi Li
, Ohio 44932 , (S3t>) 42o-£zoo , anA is hereinafter rePerced
to as "Tlrtarnasotfu"
Cmily Polachek, Ka4Uarms Buzicky,aviA Michael Ckeever
represent the OmteA States oP America at the, UmtcA States AHorrteyk Office,
GOO OS* CoorH\cOS£.i 2£DSodhVbotlh Street, PTmAeapotis .-Minnesota S5HIS)
(&l£) CCA-S(£o, anA are, heicinafter referred to as '‘opposing counsel.'
RELATED CASES

UaiWA

v.TnamasaA, Kk, W-cr-os, US. bieAnct Court Par the district oP
JAiav\cSo\a. AoAqvnevA entered Aoly 10,2019.

LhiteA States v. Thomason, t91 F.3A 910 feV\Gr*20Zo)J US Court oF Appeals Par
W- Li^UlVv CircOit. AoAgmejat entered March lC,2£2l.

iii

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION

Z

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

■3

STATEMENT OF THE CASE

4-5

REASONS FOR GRANTING THE WRIT

fell

CONCLUSION

IHZ

INDEX TO APPENDICES

APPENDIX A

becision cf ^V\e (JmdeA Stages Coord of Appeals

APPENDIX B

becisioA of f/it UmdeA Stakes bisVud Coord

APPENDIX C

Order of

APPENDIX D

RelcAtA Essays

UnideA Ctades Coord of App<aW> beny/ng Rehearing

APPENDIX E

APPENDIX F

iv

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

&o&4oc!k \1. Q&yW CVy > Wo S.ci (73l (2026)................................. ....
L)nW. Par U)omaVW. _Ho0qAj M5S 05 111 6^22)

.

.

,

576 0.5. 6*H (20t5) .........

.

,

10

-

9

.

. . 6-9
Pmr\e.kc W- Prg.tS5er> 623 T.lA 5*16 (^-Ha C\V. I9?o)...................................
8
PUtmeA Pafgj/AVwA \f< Ca-se^y, 505 OS. 233 0992) ...... - . . . 7
Svm4V\ iA PaSrAiKscA , 2*19 F.5<A 755 (24V\Gr, 200D) . .

...

.

-

.

.

.

%

^oiv\mer5 \f. feoAgeA Hk4q.i IflCo 667 F2A 242 65ih Gr. 1922) .... , ,

2

. 9
iMeA gfaWsir. tAtm±-£eaA\n$.7t7 TeA. Apyfc 355 fefaCTr. 2019) ... .2-9
UnAcA SVWs \f. \larne.r / 94$ frsAlso (^fvi GV. 2020")
9-n

lay Y. b&AAisoA , >Ao. K-CV- 00501 , 2020 POL 11 OH9 6 2 (Sh HI > 202q) . -

STATUTES AND RULES
\% O.5.C. §2261A — TV\c IaWoWIc £talkirig Act

OTHER

V

.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

i .

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
IX For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
IX reported at UnAcA
f, 'TvwAQfCA'V91
f&MCic,2.020^ or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

A

The opinion of the United States district court appears at Appendix__B__ to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
IX is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
IXI For cases from federal courts:
The date on which the United States Court of Appeals decided my case
fWV\ \L
was
[ ] No petition for rehearing was timely filed in my case.
EX A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
May tO,toZ\
, and a copy of the
order denying rehearing appears at Appendix_C.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
......................................., and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including __
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

1

CONSTITUTIONAL AND STATUTORY PROVISOINS INVOLVED
Equal Protection and Due Process Clauses, U.S. Const, amend. XIV, §1; V.
The Equal Protection Clause provides that no state shall “deny to any person within its
jurisdiction the equal protection of the laws” U.S. Const, amend. DCV, § 1, and it applies to the
federal government through the Due Process Clause of the Fifth Amendment. U.S. Const.
amend. V. The Equal Protection Clause demands that similarly situated persons be treated alike.
It protects fundamental rights, suspect classifications, and arbitrary or irrational government
actions.
Substantive Due Process, U.S. Const, amend. V.
Substantive Due Process protects fundamental liberty interests in individual dignity,
autonomy, and privacy from unwarranted government intrusion. U.S. Const, amend. V. These
fundamental interests include the right to make decisions concerning bodily integrity and selfdefinition central to an individual’s identity.
Free Speech Clause, U.S. Const, amend. I, XIV.
The Free Speech Clause provides that neither the government nor the states may
“abridge[e] the freedom of speech.” U.S. Const, amend. I. Free Speech is protected by the First
Amendment from infringement by the government, U.S. Const, amend. I, and is among the
fundamental personal rights and liberties which are protected by the Fourteenth Amendment
from invasion by state action. U.S. Const, amend. XIV. The expression of a person’s clinicallyverified gender identity through dress is protected speech.
18 U.S.C. § 2261A - The Interstate Stalking Act, Pub. L. No. 104-201, 110 Stat. 2422 (1996).
18 U.S.C. § 2264 - The Violence Against Women Act (VAWA), Pub. L. No. 103-322, Title IV,
108 Stat. 1902(1994)
34 U.S.C. § 1229 (b)(13)(A) - The Violence Against Women Reauthorization Act of 2013
(Nondiscrimination Clause)
Pub. L. No. 103-322, Title IV, §40002 (2013)

3

STATEMENT OF THE CASE
This is a case involving two romantic partners, one transgender and the other cisgender
from a romantic union gone awry. After meeting in college, Thomason and the former partner
(“JNS”) formed a relationship. (DCD 43 at 2). In that time, the two often spent time as females,
as Thomason began the transition from male to female and thus frequently wears women’s
clothing and makeup (DCD 71 at 25). In the spring of 2018, after a year and a half, JNS
discussed the need to separate and subsequently moved from Michigan to Minnesota to be with
family. (DCD 43 at 2).
Thomason later traveled to JNS’ location in Minnesota where Thomason placed a
tracking device to the vehicle she had purchased for JNS, and thereafter, checked up on the car
and JNS, culminating in an attempt to reconcile with JNS. (DCD 43 at 2). On January 8, 2019,
a one count indictment was filed in the District of Minnesota, charging Thomason with interstate
stalking in violation of 18 U.S.C. § 2261 A(l), for proscribed conduct between the months of
October, 2018, and December, 2018, (DCD 14). After standard pretrial motion practice,
Thomason pleaded guilty to the single count of the indictment as charged. (CDC 43 at 1).
Despite informing former trial counsel of her transgender status, the plea agreement referred to
Thomason using male pronouns. (DCD 43).
Active in the LGBTQ community, Thomason previously volunteered at a local LGBTQ
community center for four years, wearing a name badge indicating a preference for gender
neutral pronouns. (DCD 71 at 27). Thomason requested the same in her District Court. (DCD
71 at 1). This fell on deaf ears. Rather, Thomason was addressed by male pronouns in all court
proceedings, including by former trial counsel. At the nearly five hour sentencing hearing,
(DCD 68), the parties and the District Court addressed Thomason by male pronouns, at which

H

f

time the District Court imposed a total term of 45 months with three years of supervision. (DCD
120). The District Court also ordered restitution to JNS (DCD 128).
After the matter of restitution, Thomason filed a motion for recusal based on the District
Court’s failure to apply mitigating circumstances, such as Thomason’s history of mental health
issues, as well as the District Court’s overt animosity toward Thomason after she chose to forego
the right to counsel. (DCD 122 at 7, 10). Thomason also presented the prosecution’s
misconduct and discriminatory state of mind, paired with the District Court’s failure to admonish
the prosecution for intentional and repeated use of male pronouns, further demonstrating that the
District Court was motivated by assumptions and attitudes related to said discriminatory state of
mind. (DCD 122 at 11). The District Court denied Thomason’s request. (DCD128).
An appeal to the Eighth Circuit Court of Appeals followed. See United States v.
Thomason. 991 F.3d 910 (8th Cir. 2020). There Thomason presented the question of whether the
intentional or repeated refusal to use transgender person’s pronoun, paired with stereotyping, and
despite affirmative knowledge of the transgender person’s status, constitutes a requisite intent to
discriminate sufficient to warrant dismissal of an indictment on the basis of impermissible
prosecutorial misconduct. (Id.). Thomason further requested the Eighth Circuit honor her
previously requested pronoun. After oral argument on the matter, the panel of the Eighth Circuit
affirmed the District Court’s ruling in a published opinion, using male pronouns to address
Thomason. (Appendix, Tab A). A petition for rehearing was timely filed, with Amici Curiae but
. was also denied. (Appendix, Tab C).
The petition for a writ of certiorari follows.

5

REASONS FOR GRANTING THE PETITION
I.

To Maintain Public Confidence in the Federal Judiciary, and Equal Protection of
the Laws, the Pronouns of Transgender Litigants Must be Honored
In a nation committed to protecting fundamental freedoms, fairness and equality, public

confidence in the institutions devoted to uphold these basic human rights is essential. That
confidence erodes when politically unpopular groups are nevertheless treated disparately on
account of an illegitimate motive such as race or sex. Confidence erodes further, still, when
courts diverge from longstanding traditions to deny transgender persons basic dignity and
respect. If the events of the past year - a global health crisis, mass protests against police
brutality, a surge in hate crimes - have taught us anything, it’s that we must protect society by
closing the gap between our nation’s ideals and its vast inequities.
Here, Thomason petitioned the Eighth Circuit Court of Appeals for relief. The Eighth
Circuit Court panel, however, issued an opinion which forces this nation further away from its
core ideals and constitutional promises. One prominent issue in debate is the adoption of
preferred gender pronouns which, categorically, courts honor as a matter of courtesy and respect.
Few others have taken another approach, referring to transgender litigants in an inflammatory
and potentially harmful manner. This case is an illustration of the latter, prompting the question:
Should federal courts and the litigants to these tribunals be prohibited from referring to
transgender litigants according to their biological sex rather than their gender identity?
Textually speaking, a preferred pronoun inherently suggests a preference for one gender
label over another; however, in this case, and many others, that request is intrinsically linked to a
clinically-verified condition of physical and neurobiological origin, and is representative of a
person’s true sex. Such a defining characteristic speaks to such fundamental liberties as “the
right to define and express one’s identity.” Obersefel! v. Hodges, 576 U.S. 644,663 (2015).
6

The very essence of this right reflects a general tradition of self-sovereignty and involves “basic
and intimate exercises of personal autonomy.” Planned Parenthood v. Casey. 505 U.S. 833, 847
(1992). This necessarily elevates the issue above a desire to express one’s personal preference.
The right to independently define one’s identity through dress and an accompanying
gender pronoun seems to rise from a better understanding of how constitutional imperatives
define a liberty that becomes emergent in our time. Indeed, these are sensible needs of a
growing population of Americans, and it is our constitution that demands equal protection of the

t

laws, providing a direction that these are not merely abstract propositions to bend and manipulate
<

at whim. U.S. Const, amend. XIV. § 1; U.S. Const, amend. V. Denying persons the autonomy
to define for themselves an identity denies equal protection, dignity and respect. The injury here
strips the very essence of personhood and the right to be respected as human being; and this fails
to comport with rights implicit in the concept of ordered liberty.
These liberties define our society and as a society we are inextricably linked. We can
only do so much to protect our interests individually; we’re much safer when we prioritize the
health of the whole community - here, the entire nation. Transgender persons are part of this
community and cannot be treated as social outcasts or as inferior in dignity and worth. Thus, to
maintain public confidence in the federal judiciary, and equal protection of the laws, the
pronouns of transgender Americans must be honored with the same care and respect that all
other persons in litigation are afforded. The health of our nation depends on it.
II.

The Eighth Circuit Panel in Thomason’s Case Diverged from a Longstanding
Tradition of Honoring the Pronouns of Transgender Litigants.
After volunteering at a local LGBTQ community center for many years using gender

neutral pronouns as a name badge, Thomason thought nothing of requesting the same in her
district court. A distinct request such as this is not so easily forgotten; however, Thomason’s
7

request was cast aside in lieu of a stereotype. Thus. Thomason brought the issue before the
Eighth Circuit on direct appeal. United Slates v. Thomason 991 F.3d 910 (8th Cir. 2020). There,
Thomason asked the Eighth Circuit to decide whether intentional or repeated refusal to use a
transgender person’s pronoun constitutes a requisite intent to discriminate sufficient to warrant
impermissible prosecutorial misconduct. At a minimum, Thomason requested the Eighth Circuit
honor her pronoun.
While it was clear the problem existed, it was also obvious how simple it was to solve.
The Eighth Circuit panel, however, did not address this argument. The opinion, rather, used
male pronouns against Thomason’s wishes because it was “[consistent with the proceedings in
the district court,” Panel op. at 7.n.s., for which Thomason appealed. Not only is this a startling
departure from accepted norms, as noted by Thomason on petition for rehearing, this failure
necessarily implicates all future Eighth Circuit jurisprudence with regard to the gender identity
of litigants and the duties owed those litigants by the Eighth Circuit Court of Appeals.
The decision notably diverges from a longstanding tradition of honoring the pronouns of
transgender litigants. Since at least 1980, the Eighth Circuit has issued opinions that use the
pronouns of these various litigants. See Pinneke v. Preisser. 623 F.2d 546 (8th Cir. 1980);
Sommers v. Budset Mkte. Inc.. 667 F.2d 748 (8th Cir. 1982); Smith v. Rasmussen. 249 F.3d 755
762 n.8 (8th Circuit 2000) (“[W]e will refer to Smith in accordance with his preference, by using
masculine pronouns.”). This remains true for criminal defendants. See United States v. AdamsReadins. 787 Fed. App’x 355, 356 n.l. (8th Cir. 2019) (“Adams-Reading goes by Erika and is in
the process of gender transition. Accordingly, this opinion refers to her using feminine
pronouns.”).

&

Like the defendant in Adams-Readins. Thomason’s identifiable group is transgender, and
Thomason has been mid-transition. Moreover, Thomason identifies with the female gender, and
prefers female pronouns. Finally, like Adams-Readins. Thomason was previously referred to
with male pronouns, including in a plea agreement. The notable difference is the offense of
conviction: Thomason’s prescribed conduct is alleged to be motivated by gender. This Court
has repeatedly stated that gender is an irrational motive, no matter the cause. See e.g., Miss.
Univ. for Women v. Hosan. 458 U.S. 718, 728 (1982).
A. This Question Has Important Legal Ramifications for the Entire Nation

\

This recent development certainly creates a crisp circuit split in joining the only other
Circuit Court of Appeals to diverse from the majority. See United States v. Varner. 948 F.3d
250, 252 (5th Cir. 2020). In Varner, the Fifth Circuit observed that “no law compels granting or
denying such a request...” Varner 948 F.3d at 260. But this Court and our nation’s traditions
have made clear that our constitutional system promises that individuals need not await
legislative action before asserting such a right. Obersefell. 576 U.S. at 677. One may not simply
forfeit a fundamental right. Moreover, in some situations, equal protection rights may well
demand the use of affirming pronouns. Tav v. Dennison. No. 19-CV-00501,2020 WL 2104962
(S.D. 111. May 1, 2020) (Defendant’s violated equal protection rights by subjecting the
transgender plaintiff to abuses such as verbal harassment, including misgendering).
Taken together, the issue is a matter of national importance, one which deserves the
utmost care and sensitivity. The people of this nation conferred power upon officials in
government to represent their best interests, and further consented to be governed under the
Constitution, all of which includes protection under the Constitution. The government fails to
represent the interests of the people by subjecting them to abuses such as verbal harassment.

<?
i

This speaks to a denial of civility and respect in the very institutions designed to protect the
people and violates the will of the people.
B. The Eighth Circuit Panel’s Failure to Address the Question Presented Should
Not Prevent Thomason from a Petition before this Court
As a traditional rule, this court will not grant a petition for certiorari when the question
presented was not pressed or passed upon below. In this case, the Eighth Circuit failed to
address Thomason’s argument under Bostock v. Clayton Ctv. 140 S.C.T. 1731 (2020), and also
failed to explicitly pass upon the argument. The opinion does not even mention Bostock.
Nevertheless, this should not preclude Thomason, or the people of this nation, from obtaining
relief in this court. There exists a greater need now more than ever to protect values reflecting
society’s deeply felt belief that the criminal law cannot be used as an instrument of unfairness.
The wholesale denial of dignity and respect to litigants in federal courts of law does not comport
with traditional ideas of fair play and decency. And one cannot simply forfeit a fundamental
right simply because the matter of concern was not properly addressed.
As observed by the Fifth Circuit and now the Eighth Circuit, no authority supports the
proposition that courts must refer to “gender dysphoric” litigants with pronouns matching their
subjective identity. However, therein lies the problem and solution. The very practice of
reducing transgender litigants to mere “gender dysphoric” persons necessarily strips a layer of
personhood, rendering the proceedings particularly dehumanizing. It is not socially acceptable to
poke fun at a physically or mentally handicapped person - it is likewise not acceptable to
denigrate a person over a birth defect of physical and neurobiological origin, especially when the
motivating factor is gender.
Of particular concern, the issue of judicial impartiality materialized in the Fifth Circuit,
suggesting that this impartiality may be called to question by honoring a party’s request for
10

address by affirming pronouns, more specifically by unintentionally conveying tacit approval of
the litigant’s underlying legal position. Varner. 948 F.3d at 256. But that argument itself rests
on the proposition that being transgender is a legal position at all. Gender is not a defined
objective identity; it’s human experience. And there cannot be a legitimate government
objective in needlessly attempting to shame and invalidate that human element in an
inflammatory and potentially harmful manner.
It is simply not within our constitutional traditions to issue rulings such as this. Central
to both the idea of the rule of law and to our Constitution’s guarantee of equal protection is the
principle that the government and each of its parts remain open and fair to all. The Eighth
Circuit’s ruling now raises the inevitable inference that the disadvantage imposed is bom of
animosity toward the class of persons affected. This itself reflects a broader concern for public
confidence in the administration of justice, that justice must also satisfy the appearance of
justice. This ruling does not - it necessarily harms the integrity of the process and this mainstay
of our democracy. The Eighth Circuit’s patent refusal to apply well-established precedent in a
neutral way is indefensible, and will undermine confidence in the judiciary as a fair and neutral
arbiter for years to come.
III.

Conclusion
The Eighth Circuit has entered a decision in conflict with the decisions of nearly every

Court of Appeal, including its own longstanding tradition, and has thus far so departed from the
accepted and usual course of judicial proceedings as to call for an exercise of this court’s
supervisory power.
Federal courts and the officers to these legal tribunals have an affirmative duty to
maintain public confidence in the legal profession, and to insure the integrity ofjudicial

II

proceedings. Discretionary review is in the interest of the people, not least of which includes
LGBTQ Americans because society cannot be protected without courts. It is essential that these
tribunals be open and impartial to all, even in disagreement. Allowing invalidating and
denigrating practices like those observed here would be to make the courts instruments of
oppression and a means of gratifying spite and hatred without any responsibility.
i

The question has not been, but should be, settled by this court. The petition for a writ of
certiorari should be granted.

Respectfully submitted,

Date:

II

